BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief of Petitioner in 20-1 784, State of
Ohio v. Daniel Deuble, was sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day service and e-mail to the following parties
listed below, this 11th day of August, 2021:
Justin Michael Weatherly
Henderson, Mokhtari & Weatherly, Co., LPA
1231 Superior Avenue East
Cleveland, OH 44114
(216) 77 4-0000
jw@hmwlawfirm.com

Counsel for Respondent
Michael C. O'Malley
Cuyahoga County Prosecutor
Daniel Tuyen Van
Assistant Prosecuting Attorney
Counsel of Record
The Justice Center, 8th Floor
1200 Ontario Street
Cleveland, OH 44113
(216) 443-7865
dvan@prosecutor .cuyahogacounty. us

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 11, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{1£- Slvt,,V

Nota~ ~b~~ ~
[seal]

J~ c){);}/

